                                                                 Issue Date
                                                                        November 28, 2007
                                                                 Audit Report Number
                                                                        2008-FW-1002




TO:         Cheryl J. Williams
            Director, Office of Public Housing, 6HPH


FROM:       Gerald R. Kirkland
            Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: The Shreveport Housing Authority, Shreveport, Louisiana, Did Not Ensure That
         Section 8 Units Met Housing Quality Standards


                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Shreveport Housing Authority’s (Authority) Section 8 Housing
             Choice Voucher (Section 8) program as part of our strategic plan. Our objective
             was to determine whether the Authority’s Section 8 units met housing quality
             standards and if not, determine the extent, cause, and impact of its noncompliance
             on its Section 8 program.

 What We Found


             The Authority did not have adequate management controls to ensure that it
             complied with U. S. Department of Housing and Urban Development (HUD)
             requirements. Of the 66 statistically selected sample units we inspected, 62 (94
             percent) did not meet minimum housing quality standards, and 47 (71 percent)
             were materially noncompliant with housing quality standards. As a result, tenants
             lived in units that were not decent, safe, and sanitary. If the Authority does not
             establish effective management controls, we estimate that it will pay more than
             $6.1 million in the next 12 months for units that are materially noncompliant with
             HUD’s housing quality standards.
What We Recommend


           We recommend that the Director of the Office of Public Housing require the
           Authority to inspect the 62 units that did not meet minimum housing quality
           standards to verify that the owners took appropriate corrective action to make the
           units decent, safe, and sanitary. Further, the Director should require the Authority
           to reinspect all of its Section 8 units, including those units that it owns, and ensure
           that they meet housing quality standards. If any of the units cannot be made
           decent, safe, and sanitary, the Authority must either abate the housing assistance
           payments or terminate the tenant’s voucher as appropriate. Further, we
           recommend that the Director require the Authority to implement procedures and
           controls to ensure that its Section 8 units and inspections meet HUD requirements
           to prevent $6.1 million in future assistance payments from being spent on units
           that do not meet standards.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.


Auditee’s Response


           We provided a copy of the draft report to Authority officials on October 31, 2007,
           for their comments and discussed the report with them at the exit conference on
           November 2, 2007. We requested the Authority respond on November 13, 2007.
           The Authority asked for additional time to respond to the report and provided its
           written comments to our draft report on November 26, 2007.

           The Authority agreed with the audit report and provided a corrective action plan.
           We attached the Authority’s response in Appendix B. However, we did not
           include the corrective action plan because it was too voluminous, but it is
           available upon request. We provided the entire response to HUD who agreed
           with the finding.




                                              2
                            TABLE OF CONTENTS

Background and Objectives                                                        4

Results of Audit
      Finding: Tenants Lived in Units That Were Not Decent, Safe, and Sanitary   5

Scope and Methodology                                                            12

Internal Controls                                                                14

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use             15
   B. Auditee Comments and OIG’s Evaluation                                      16




                                            3
                      BACKGROUND AND OBJECTIVES

The Housing Authority of the City of Shreveport (Authority) was established in 1940 to provide
decent, safe, and sanitary housing for low-income families residing in or expected to reside in its
jurisdiction area. The Authority is governed by a mayor-appointed five-member board of
commissioners serving staggered five-year terms. The board of commissioners appoints the
executive director, who is charged with the responsibility of overseeing the day-to-day affairs of the
Authority.

The Authority operates a Section 8 Housing Choice Voucher (Section 8) program consisting of
approximately 2,500 Section 8 units. It entered into its first annual contributions contract with the
U. S. Department of Housing and Urban Development (HUD) in the mid-1970’s. The Authority
has never operated its Section 8 program with its own staff; rather, it has contracted for program
administration. Since 1990, it has contracted with Pendleton Development Corporation (Pendleton)
as its Section 8 administrator.

In its current contract, Pendleton claimed credit for achieving high performer status for the
Authority on its 2003, 2004, and 2005 Section Eight Management Assessment Program (SEMAP)
scores. The Authority’s SEMAP scores have reflected standard or high performance since 2002.
However, there has been no recent monitoring by HUD to confirm those scores. In addition,
documents maintained by the Authority’s staff as well as the Authority’s annual audit reports show
Pendleton’s performance problems in administering the Authority’s Section 8 programs.

The Authority has a 63-member staff, two of whom–an administrative coordinator and a housing
inspector-monitor Pendleton’s performance. The administrative coordinator monitors file actions
and assistance payments while the housing inspector monitors Pendleton’s inspections performance.
The two staff members maintain their monitoring records in the Authority’s administrative building
at 2500 Line Avenue in Shreveport, Louisiana.

Pendleton has a 16-member staff, including three inspectors. It maintains the Section 8 tenant files,
inspection records, and assistance payment records in its office at 533 Jordan Street in Shreveport
Louisiana.

The annual housing assistance payments for the Authority’s fiscal year 2007 were approximately
$9.7 million.

Our objective was to determine whether the Authority’s Section 8 units met housing quality
standards and if not, to determine the extent, cause, and impact of its noncompliance on its
Section 8 program. This is the first of three audit reports on the Authority’s Section 8 program.




                                                  4
                                       RESULTS OF AUDIT

Finding: Tenants Lived in Units That Were Not Decent, Safe, and
         Sanitary
The Authority housed tenants in units that were not decent, safe, and sanitary because it did not
have adequate management controls to ensure that it complied with HUD requirements. Of the
66 statistically selected sample units we inspected, 62 (94 percent) did not meet minimum
housing quality standards, and 47 (71 percent), including two Authority owned units, were
materially noncompliant with housing quality standards. If the Authority does not establish
effective management controls, we estimate that it will pay more than $6.1 million in the next 12
months for units that are materially noncompliant with HUD’s housing quality standards.



    The Authority’s Section 8 Units
    Did Not Meet HUD’s Housing
    Quality Standards


                   The Authority did not implement adequate management controls to ensure that it
                   complied with HUD’s requirements for maintaining units in decent, safe, and
                   sanitary condition. We inspected a statistical sample of 66 units with a HUD
                   inspector and the Authority’s quality control inspector and found that 62 units (94
                   percent) did not meet minimum housing quality standards. Projecting the results
                   of the overall failure rate to the Authority’s universe of 2,456 units shows that at
                   least 2,168 of the units would not meet minimum housing quality standards.
                   Further, 47 of the 66 failed units (71 percent), including two Authority owned
                   units, were in material noncompliance with the standards. 1 Projecting the results
                   of the 47 significant failures to the universe shows that at least 1,547 of the
                   Authority’s units would be materially noncompliant with housing quality
                   standards.

     Pendleton Passed Units That
     Did Not Meet Standards



                   Of the 62 units that did not meet minimum housing quality standards, 51 had
                   deficiencies that existed at the time of Pendleton’s most recent inspections.
                   However, Pendleton’s inspectors only failed 22 of the units. Instead, Pendleton’s
                   inspectors either did not identify the deficiencies or did not report them as failing

1
      See the Scope and Methodology section of this report for our definition of and method of determining which
      units were materially noncompliant.


                                                         5
conditions. The following pictures demonstrate deficiencies that were either not
identified or not reported by Pendleton.




A Pendleton inspector did not document the long standing peeling paint in the
above pictures taken on June 25, 2007. There was peeling paint both inside and
outside the unit, which was occupied by a family of six with four children, ages 2
through 11. Pendleton passed the unit on August 13, 2006, without notating the
condition.




A Pendleton inspector failed the above unit on January 22, 2007, because the
window was broken and the bathroom heater did not work. He did not note that
the unit had been vacated and the utilities had been disconnected. He passed the
unit on February 7, 2007, even though the window was still broken, and the gas
and electricity had long since been disconnected. According to the Authority, the
gas was turned off in February 2003, the electricity was turned off in August
2006, and the water was turned off in February 2007. According to neighbors, the
unit had been vacant since August 2006.




                                 6
    Pendleton Did Not Ensure That
    Deficiencies Were Corrected


                 For the 22 units that Pendleton did fail, it did not ensure that the deficiencies were
                 properly corrected or corrected in a timely manner as required by HUD and the
                 Authority. 2 For 14 of the 22 failed units, Pendleton’s inspectors did not follow up
                 on deficiencies that they documented or did not follow up on them within
                 regulatory timeframes. Further, for 13 of the 22 units, Pendleton’s inspectors
                 failed to ensure that deficiencies they documented were corrected before passing
                 them. As a result, Section 8 tenants continued to live in substandard units after
                 Pendleton’s inspectors documented unsafe and unsanitary conditions in those
                 units.




                 For example, the above picture on the left shows a leaning water heater that a
                 Pendleton inspector reported as a 24-hour emergency repair item on March 16,
                 2007. The inspector passed the unit on May 17, 2007, without ensuring the
                 deficiency was properly corrected. Although two wooden blocks had been placed
                 under the left side of the water heater, it was still leaning dangerously at the time
                 of our inspection on June 28, 2007. Unstable cinderblock supports under the rear
                 of the unit likely caused the floor to bow, resulting in the leaning water heater.

                 To further illustrate the condition of this unit, the above picture on the right shows
                 the unstable cinderblocks, a sewer leak, and loose handrails on the rear steps.
                 Pendleton did not identify these deficiencies on its March 16, 2007, inspection
                 form.



2
    Regulations at 24 CFR [Code of Federal Regulations] 982.404(3) and section 105 B of the Authority’s
    administrative plan require that emergency fail items be corrected within 24 hours and that nonemergency fail
    items be corrected within 30 days. Further, the Authority is required to either abate the assistance until the
    deficiencies are corrected or terminate the assistance contract.


                                                         7
The above pictures show that Pendleton’s inspectors did not ensure that
corrections were properly completed. The above left picture shows a missing
cover plate in a unit occupied by a family of six with five children ages 5 through
14. Pendleton’s inspector initially reported the unit as a 24-hour emergency
failure due to an empty electrical plug opening on November 29, 2006. The
landlord installed the electrical outlet into the opening but did not install a cover
plate. On January 4, 2007 (36 days after the emergency failure), Pendleton’s
inspector passed the unit without reviewing the repair. According to the tenant,
the inspector did not want to look at the repairs and asked her to tell him what was
wrong with the unit. The picture on the right is from a unit that the inspector
initially failed on February 27, 2007, due to repairs that were needed on the
central heating unit. After the landlord installed a new central heating unit, the
inspector passed the repair on April 23, 2007, although a switch plate cover was
missing inside the central heating unit closet. The switch was new and appeared
to be part of the repairs.




                                  8
Both Authority-Owned Units in
the Sample Had Significant
Deficiencies




           The Authority owned two of the units in the sample. As the owner, the Authority
           was required to maintain the units; however, both units had material deficiencies.
           One of the units was in such serious condition that it should not have been
           admitted into the Section 8 program. The unit had significant problems such as
           missing handrails, nonoperational electrical outlets, and a hole in the bathtub and
           bathroom floor where the bathtub had rusted through, which allowed bath water
           to pool under the house and in the yard (photo above left). The tenants created
           additional hazards because electrical outlets in the unit were inoperable. The
           tenants ran electrical cords across rooms and between rooms to connect window
           air conditioners to operating outlets (photo above right). Pendleton passed the
           unit on January 30, 2007, without comment.

 The Authority Did Not Have
 Adequate Management
 Controls

           Although the Authority contracted with Pendleton to administer its Section 8
           program, the Authority is required by its annual contribution’s contract with HUD
           to ensure that its units meet housing quality standards. HUD requirements
           provide minimum conditions that must exist for a unit to be considered decent,
           safe, and sanitary. However, the Authority did not have adequate management
           controls to ensure that the requirements were met. Specifically, the Authority
           failed to 1) establish a strong contract for Section 8 services provided by
           Pendleton, 2) implement an effective quality control system to ensure that
           Pendleton properly inspected units and required deficiencies to be corrected, and
           3) ensure that its or Pendleton’s policies and procedures were current or followed.



                                            9
                         As a result, the Authority did not take action to prevent its tenants from living in
                         unsafe and unsanitary conditions.

                         The Authority’s contract with Pendleton did not protect the Authority or its
                         Section 8 tenants if Pendleton did not adequately perform its responsibilities for
                         inspecting units and ensuring that deficiencies were corrected. For example, in
                         the contract, Pendleton agreed to keep a professionally trained staff. However,
                         the contract did not contain provisions requiring Pendleton to document or ensure
                         that its staff was qualified. The contract did not contain provisions for the
                         Authority to assess penalties if Pendleton failed to perform inspections or to
                         perform them properly. Also, while the contract required Pendleton to submit
                         inspection reports, it did not require Pendleton to provide performance summaries
                         that would allow the Authority to monitor its performance.

                         The Authority’s management also established an ineffective quality control
                         system with unrealistic goals that provided misleading results. The Authority
                         claimed to have reinspected 100 percent of the units inspected by Pendleton.
                         However, the Authority’s housing inspector actually reinspected only 60-70
                         percent of the units for which Pendleton provided inspection forms and did not
                         know whether Pendleton provided all of the inspection reports. Further, the
                         Authority’s inspector inspected only the exteriors of nearly half of the units he
                         inspected and did not follow up on whether the deficiencies he documented were
                         corrected. As a result, units that Pendleton should have failed went undetected by
                         the Authority, and failed units went uncorrected.

                         Lastly, Authority management did not ensure that its or Pendleton’s policies and
                         procedures were current or followed. The Authority’s administrative plan is its
                         only policy document for inspections. However, the administrative plan had not
                         been updated since 2001 and was out of date. Further, neither the Authority nor
                         Pendleton followed the administrative plan. For example, the administrative plan
                         required inspectors to use HUD’s inspection form to document inspections. Both
                         the Authority and Pendleton used locally developed forms which were not as
                         detailed as the HUD forms. The administrative plan also prohibited the Authority
                         from allowing marginal units 3 into its Section 8 program, but our inspection
                         results show that marginal units existed in the program.

                         Finally, as an administrator of the Section 8 program responsible for ensuring that
                         owners provide decent, safe, and sanitary housing; the Authority should ensure
                         that its own units, at a minimum, meet requirements. The Authority places itself
                         in a difficult position when taking actions against other noncompliant owners if it
                         does not properly maintain its own units. The Authority needs to implement
                         procedures that ensure its Section 8 units meet standards.




3   The administrative plan defines marginal units as those units that are likely to fall below standards within one year.




                                                                                      10
Conclusion


             Since the Authority did not have effective management controls over the
             monitoring of its Section 8 program, tenants lived in units that were not decent,
             safe, and sanitary. HUD needs to ensure that the Authority develops and
             implements policies, procedures, and controls that ensure compliance with
             requirements. If the Authority does not establish effective management controls,
             we estimate that it will pay at least $6.1 million in the next 12 months for units
             that are materially noncompliant with HUD’s housing quality standards.

Recommendations



             We recommend that the Director of HUD’s New Orleans Office of Public Housing
             require the Authority to

             1A. Implement procedures and controls to ensure that units meet housing quality
                 standards and its inspections meet requirements to prevent at least
                 $6,145,796 from being spent in the next 12 months on units that are in
                 material noncompliance with standards.

             1B. Reinspect before January 1, 2008, the 62 units that failed to meet minimum
                 housing quality standards to verify that the owners took appropriate
                 corrective actions to make the units decent, safe, and sanitary. If appropriate
                 actions were not taken, the Authority must either abate the housing
                 assistance payments or terminate the tenants’ vouchers as appropriate.

             1C. Implement procedures that ensure Section 8 units that it owns meet
                 standards.

             1D. Inspect all of its owned Section 8 units by April 1, 2008, and ensure that
                 they meet housing quality standards. If any of the units cannot be made
                 decent, safe and sanitary, the Authority must remove them from the Section
                 8 program.

             1E. Inspect all of its remaining Section 8 units by April 1, 2008, and ensure they
                 meet housing quality standards. If any of the units cannot be made decent,
                 safe and sanitary, the Authority must either abate the housing assistance
                 payments or terminate the tenants’ vouchers as appropriate.




                                             11
                         SCOPE AND METHODOLOGY

To accomplish our objective, we

   •   Obtained and reviewed relevant HUD regulations and the Authority’s administrative
       plan;

   •   Selected a statistical sample of 66 of the Authority’s Section 8 units to inspect from its
       housing assistance payments register;

   •   Obtained and reviewed the Authority’s previous inspection reports for the sample units to
       determine whether the unit 1) passed its last inspection, (2) was inspected annually, and
       3) had a completed inspection report;

   •   Inspected the 66 sample units with a HUD staff inspector and the Authority’s quality
       control inspector to determine whether the units met housing quality standards; and

   •   Conducted interviews with Authority staff, Pendleton staff, and program tenants.

We used data maintained by Pendleton in the April 2007 housing assistance payments register
for background information and in selecting our sample of units for inspections. We did not rely
on the data to base our conclusions. Therefore, we did not assess the reliability of the data.

We performed the audit work at the Authority’s office, at sampled unit locations in Shreveport,
Louisiana, and at our offices in Houston, Texas, from May through August 2007. Our audit
period was June 1, 2006, through July 10, 2007; however, we expanded it as necessary to review
prior inspections for each unit. We conducted the audit in accordance with generally accepted
government auditing standards.

 Statistical Sample Selection and
 Methodology


We used a representative random statistical sample and projected our results to the universe of
2,456 Section 8 units that received housing assistance payments in April 2007. We determined
that an error was a unit that did not meet the minimal housing quality standards.

To obtain our statistical sample, we numbered the Section 8 units from 1-2,456. We used the
Statistical Toolbox software application to select the sample size based on the following
sampling criteria: 90 percent confidence level, 50 percent expected error rate, and 10 percent
desired precision rate. Statistical Toolbox established a total of 66 units to inspect. We used the
random number generator feature of Audit Control Language software to select 86 random
numbers from 1 to 2,456, and we applied the numbers to our database. The first 66 numbers
were our statistical sample, and the remaining 20 numbers were replacement units in case we
could not access all of the 66 sample units.


                                                12
We inspected the 66 sample units between June 25 and July 10, 2007. We replaced six of the
original units because the tenants had moved or the units were not accessible.

We used EZ Quant software to project the results of the 62 failed units, 94 percent of the sample,
to the universe of 2,456 units. The results showed that

         •   The lower limit is 88.3 percent x 2,456 = 2,168 units not meeting housing quality
             standards.


    Determination of Materially
    Noncompliant Units


After we conducted our inspections, we compiled the results using the following definition for
materially noncompliant. Materially noncompliant units were units which contained health and
safety failures or items not easily correctable including but not limited to blocked fire exits,
extreme unsanitary conditions, lack of hot water, inoperable window locks, peeling paint (when
potentially lead-based), exposed electrical wiring, and serious sewer and water leaks.

In determining materially noncompliant units, we also considered whether the deficiencies
obviously existed during the prior inspection and were not documented by the prior inspector and
whether the deficiencies were documented but not properly corrected. We concluded that 47
units, 71 percent of the sample, were materially noncompliant with housing quality standards.
Using EZ Quant, we projected the results to the universe of 2,456 units. The results showed that

         •   The lower limit is 63 percent x 2,456 = 1,547 units materially noncompliant with
             housing quality standards.

Using the lower limit and the annualized average monthly housing assistance payments of $331
for the population of 2,456 Section 8 units, we estimated that the Authority will spend at least
$6,145,796 for 1,547 units that are materially noncompliant during the next 12 months.4




4
      [(2,456 x .63 units) x $331 average monthly housing assistance payment) x 12 months] = $6,145,796.




                                                       13
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objectives:

              •   Effectiveness and efficiency of program operations – Policies and procedures
                  that management has implemented to reasonably ensure that a program meets its
                  objectives.
              •   Compliance with laws and regulations – Policies and procedures that
                  management has implemented to reasonably ensure that resources are used
                  consistent with laws and regulations.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weaknesses


              Based on our review, we believe the following item is a significant weakness:

              •   The Authority lacked effective management, controls, and written procedures
                  regarding its inspection process to ensure that its units complied with HUD’s
                  requirements.




                                               14
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE



                      Recommendation       Funds to be put
                          number           to better use 1/
                             1A                   $6,145,796




1/   Recommendations that funds to be put to better use are estimates of amounts that could
     be used more efficiently if an OIG recommendation is implemented. This includes
     reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not
     incurred by implementing recommended improvements, avoidance of unnecessary
     expenditures noted in preaward reviews, and any other savings which are specifically
     identified. In this instance, if the Authority implements our recommendations, it will
     cease to incur program costs for units that are not decent, safe, and sanitary and will
     instead expend those funds for units that meet HUD’s standards. Once the Authority
     establishes and successfully implements the recommended procedures and controls, this
     will be a recurring benefit. Our estimate reflects only the initial year of this benefit.




                                             15
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         16
17
                         OIG Evaluation of Auditee Comments

Comment 1   The Authority agreed with our audit report and provided a corrective action plan.
            We commend them for taking prompt action in preparing a corrective action plan.




                                            18
